Exporter Sentenced For Conspiring To Defraud The U.S. Export-Import Bank Of More Than $23 Million
EXPORT-IMPORT BANKof the UNITED STATES
Search
ABOUTUS
NEWS &EVENTS
PRODUCTS
TOOLS
SMALLBUSINESS
Tests
Skip to Main Content
Exporter Sentenced For Conspiring To Defraud The U.S. Export-Import Bank Of More Than $23 Million
About Us
80th Anniversary
Who We Are
Leadership
Strategic Partners
Charter and Bylaws
What We Do
Products
Small Business
Special Initiatives
Special Assistance
Key Markets
Key Industries
Success Stories
Export Numbers by State and Congressional District
General Bank Policies
Contact
Ex-Im Bank Headquarters
Regional Export Finance Centers
Small Business Group
Minority and Woman-Owned Businesses
Sub-Saharan Africa
Renewable Energy
Trade Finance
Trade Credit Insurance Division
Working Capital
Project and Structured Finance
Global Business Development
News Media - Communications
Operations and Data Quality
Contracting Services
Library
Freedom of Information Act
Reports
Brochures
Speeches & Testimony
Newsletters
Notices
Newsroom
Careers
Equal Employment Opportunity
Job Opportunities
Benefits
Salary
Diversity
Employee Viewpoint Survey
Resume Format
Pre-Employment Form
Onboarding Forms
Office of Inspector General (OIG)
News & Events
From the Chairman
Fred's Thread
Gallery
News Releases
2014
2013
2012
2011
2010
2009
2008
2007
2006 and Prior
Events
Annual Conferences
Speeches & Testimony
Ex-Im Bank in the News
Board & Credit Committee Meetings
Board Meetings
Credit Committee Minutes
Official Notices and Public Comments
Economic Impact Notices
Newsletters
Newsroom
Products
Special Initiatives
How To Apply
New Products
Working Capital
Application Process
Supply Chain Finance Guarantee Program
Global Credit Express
Export Credit Insurance
Express Insurance
Small Business Insurance
Multi Buyer
Single Buyer
Financial Institution Buyer Credit Insurance
Medium Term
Letter of Credit
Reinsurance
Standard Repayment Terms
Loan Guarantee
Application Process
Renewable Express
Project & Structured Finance
Transportation
Medium-Term Delegated Authority Program (MTDA)
Credit Guarantee Facility
Foreign Currency Guarantee
Financing Fees for Ancillary Services
Standard Repayment Terms
Finance Lease Guarantee
Direct Loan
General Bank Policies
Tools
Online Services
Ex-Im Online
Letter of Interest login
Electronic Compliance Program
Electronic Claim Filing System
Broker Locator
Lender Locator
Applications and Forms
Help Finding a Form
Working Capital Applications and Forms
Export Credit Insurance Applications and Forms
Letter of Interest
Finance Lease Guarantee Applications and Forms
Loan Guarantee & Direct Loan Applications and Forms
Guide for Fillable PDF Forms
Country Limitation Schedule
CLS Historical Reference
Credit Standards
Exposure Fees
Medium-Term Exposure Fee Advice
Long-Term Exposure Fee Advice
Short-Term FIBC Exposure Fee Financing Calculator
Short-Term ELC & ESS Exposure Fee Financing Calculator
Credit Classification Definitions for Non-Financial Institution Risk
Credit Classification Definitions for Financial Institution Risk
Credit Classification and Credit Rating Agency Rating Matrix
Commercial Interest Reference Rates
About CIRR Rates
Prior CIRR Rates
Claims and Asset Management
Credit Administration and Operations
For Brokers
For Lenders
For Buyers
Small Business
Global Access for Small Business
Small Business Customers
Exploring Exporting
Initiating Exporting
Expanding Exporting
FAQ
Brokers and Lenders
Insurance Broker Resources
Bank Resources
Insurance and Loan Products
Express Insurance
Single-Buyer Insurance
Small Business Multi-Buyer Insurance
Global Credit Express
Working Capital Guarantee
Specialized Products
Ex-Im Bank Policies
Requirements and Restrictions
Small Business Defined
Country Limitation Schedule
More Information about Exporting
Credit Reports
Discounting
Exporting Services
Factoring
Letter of Credit vs. Open Account
Trade Credit Insurance
Working Capital Loans and Guarantees
Glossary
Ex-Im Online
Contact a Small Business Specialist
Success Stories
Customer Testimonials
Search
Leave this field empty
Advanced Search
OFFICE OF THE INSPECTOR GENERAL
Advanced Search
You Are Here:
Home >
Office of the Inspector General >
Press Releases >
share this page
::
subscribe
Subscribe OverlayClose
Ex-Im Bank Updates in your Inbox
UPDATE YOUR EXISTING ACCOUNT
To edit your preferences, unsubscribe or change the list to which you subscribe, enter your email address here, and submit this form.  You will not be creating any additional accounts if you already created one.
OIG Press Releases
OIG Reports
OIG Hotline
Whistleblower Protection Ombudsman
What's New Archive
History
OIG Senior Staff
OIG Job Vacancies
Subscribe/Unsubscribe to Email Updates
Contact OIG
Media Contact: Lawrence Valett (202) 565-3908
EXPORTER SENTENCED FOR CONSPIRING TO DEFRAUDTHE U.S. EXPORT-IMPORT BANK OF MORE THAN $23 MILLION
Washington DC – April 19, 2011. The Office of Inspector General (OIG) for the Export-Import Bank of the United States (Ex-Im Bank) announced today that Ismael Garcia, 50, of Miami, Florida was sentenced on April 18, 2011 for his role in a scheme to defraud the Export-Import Bank of the United States (Ex-Im Bank) of more than $23 million. The sentencing capped a joint investigation conducted by Homeland Security Investigations, El Paso, Texas, and Ex-Im Bank OIG Special Agents concerning fraudulent loans and exports to borrowers in Mexico and elsewhere.
Garcia was sentenced by Judge Richard W. Roberts in U.S. District Court in Washington, DC to 51 months imprisonment, 36 months of supervised release, $17,996,054 in restitution, $23,084,175 in forfeiture, a $200 special assessment, and 100 hours of community service upon release. Garcia had previously pleaded guilty on October 19, 2010 to a two-count criminal information charging him with conspiracy to defraud the Ex-Im Bank and to commit wire fraud.
According to court documents, Garcia was President of US Trade Industries Inc., an export company in Miami, Florida, that purported to be in the business of purchasing United States goods on behalf of foreign clients and shipping those goods overseas. Garcia admitted during his plea hearing that from April 2004 through November 2007, he acted as a purported exporter in approximately 31 loan transactions involving approximately $23 million in loans from U.S. lending banks which were insured by Ex-Im Bank. Garcia admitted during court proceedings that all of the loans were fraudulent and no goods or machinery of any kind were ever exported as reported to Ex-Im Bank. Garcia personally retained approximately $1.1 million of these fraudulently obtained loan proceeds for his personal use and benefit. The remaining monies were sent to other co-conspirators and foreign buyers in Mexico, instead of using the money to purchase and export U.S. manufactured goods as intended. According to court records, the loans defaulted, causing the Ex-Im Bank to pay nearly $18 million in losses.
The investigation caps significant efforts to combat fraud by the OIG Office of Investigations since reaching current staffing levels in 2009, which have since resulted in 44 criminal charges, numerous arrests, and millions of dollars in criminal forfeiture, restitution, and cost savings to the American taxpayer.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by filling gaps in private export financing at no cost to American taxpayers. The Bank provides a variety of financing mechanisms, including working capital guarantees, export-credit insurance, and financing to help foreign buyers purchase U.S. goods and services. By charging fees and interest on all loan-related transactions, Ex-Im Bank is self-sustaining and is able to cover all operation costs and potential losses while also producing revenue. The Bank has generated $3.4 billion for U.S. taxpayers over the past five years.
Site Map ::
Contact Us ::
Web Site Feedback ::
Accessibility ::
Privacy ::
FOIA ::
E-Gov ::
USA.gov ::
White House ::
RSS
Open Government Initiative ::
No FEAR Act ::
Inspector General ::
exim.gov Linking Policy ::
Competitiveness Reports ::
Ex-Im Online
About Us
+
80th Anniversary
+
Who We Are
+
What We Do
+
General Bank Policies
+
Contact
+
Library
+
Careers
+
Office of Inspector General (OIG)
News & Events
+
From the Chairman
+
News Releases
+
Events
+
Ex-Im Bank in the News
+
Board & Credit Committee Meetings
+
Official Notices and Public Comments
+
Economic Impact Notices
+
Newsletters
+
Newsroom
Products
+
Special Initiatives
+
How To Apply
+
New Products
+
Working Capital
+
Supply Chain Finance Guarantee Program
+
Global Credit Express
+
Export Credit Insurance
+
Loan Guarantee
+
Finance Lease Guarantee
+
Direct Loan
+
General Bank Policies
Tools
+
Online Services
+
Broker Locator
+
Lender Locator
+
Applications and Forms
+
Country Limitation Schedule
+
Credit Standards
+
Exposure Fees
+
Commercial Interest Reference Rates
+
Claims and Asset Management
+
Credit Administration and Operations
+
For Brokers
+
For Lenders
+
For Buyers
Small Business
+
Global Access for Small Business
+
Small Business Customers
+
Brokers and Lenders
+
Insurance and Loan Products
+
Ex-Im Bank Policies
+
More Information about Exporting
+
Glossary
+
Ex-Im Online
+
Contact a Small Business Specialist
+
Success Stories
+
Customer Testimonials
back to top